                                                                                                                         April 17, 2014

Mr. Donald L. “Larry” Sampler
Assistant to the Administrator for Afghanistan and Pakistan Affairs
U.S. Agency for International Development


Dear Mr. Sampler:

Thank you for your comments on SIGAR’s March 11, 2014, inquiry letter regarding our concerns
about cost increases for the Kandahar Helmand Power Program (KHPP) and the related Kajaki Unit 2
Turbine Installation Project.1 Your comments focused on three main points. First, you mentioned that
the Kajaki Unit 2 installation cost was estimated to be $89 million, rather than the $17 million cited
in SIGAR’s inquiry letter. Second, you stated that, contrary to SIGAR’s inquiry letter, USAID not only
modified the KHPP contract to include technical assistance to the Afghan government, but also
decreased the total estimated cost of the contract by $38 million. Third, you claimed that KHPP
continues to be economically viable, despite the assertions in SIGAR’s inquiry letter. Let me cover
each of these points in turn.

With regard to the cost of Kajaki Unit 2 installation, your comments note that the $17 million figure
for the original estimated cost of the unit’s installation that was referenced from the original $266
million KHPP contract awarded in November 2010 was never an estimate of the full cost of
installation, but represented merely a “plug figure” place holder for equipment replacement and
installation costs. You further state that the full estimate for the project—$99 million, later
negotiated down to $89 million—had already been provided by Black and Veatch in 2011, prior to
the mid-2012 economic analysis.

However, the 2012 analysis assumed a total cost for KHPP that was similar to the original contract’s
estimated cost—$270 million in the economic analysis compared to $266 million in the November
2010 contract.2 It was, in our view, reasonable to assume that no individual costs had changed
significantly. We, therefore, question how the 2010 contract award value of $266 million and the
2012 economic analysis’s estimated value of $270 million could be so similar if the “plug figure” of
$17 million had, by the time of the 2012 economic analysis, already been more precisely estimated
to cost as much as $99 million and an additional $18 million in increased costs have since been
incurred because of project delays.3



1 SIGAR 14-40-SP, Inquiry Letter: Kajaki Unit 2 Project, March 11, 2014.
2 USAID Afghanistan, Economic Analysis of Kandahar Helmand Power Program (KHPP), 2012, pp. 1 and 5.
3 USAID project documents state that there is a fixed cost of $50,000 per day to maintain the Kajaki Unit 2 project site. To date, the

project has already been delayed by at least 1 year, resulting in over $18 million in increased costs to maintain the project site.
Regarding your comment that USAID modified the KHPP contract to include technical assistance to
the Afghan government and decreased the total estimated cost of the contract by $38 million, we
acknowledge these modifications occurred. Our original source documentation was USAID’s
“Quarterly Pipeline Analysis Report,” as of December 31, 2013. Apparently, the KHPP contract
modification occurred on December 29, 2013, and was not included in USAID’s “Quarterly Pipeline
Analysis Report” issued 2 days later. As a result, we concur with USAID that the net total increase to
the project’s total estimated cost is $37 million, rather than the $58 million cited in SIGAR’s inquiry
letter.

You also claimed that KHPP continues to be economically viable. Specifically, your comments state
that SIGAR’s assertion that the costs of the program would outweigh its benefits if actual costs
exceeded the estimated costs by more than 16 percent was misconstrued to refer only to USAID
program costs and did not consider other costs, such as diesel, and operation and maintenance.
Instead, you state that costs could increase by up to 21.5 percent and the project would remain
economically viable, holding all other costs constant. However, your comments contradict the
language of the 2012 economic analysis, which stated that “the total costs can only increase by 16
[percent] before the project is no longer economically viable. This would be an approximate $43
million increase in the costs as they are now.”4 Although the economic analysis asserts that it is not
expected that the costs will increase by this amount, you acknowledge in your comments that costs
have increased by $37 million. Therefore, USAID spending on KHPP has very nearly reached the
analysis’s threshold of economic viability.

In addition, other factors affecting the project’s economic viability have changed since the 2012
economic analysis. The analysis stated that a 2-year delay would cause the project to “break even,”
and a 3-year delay would cause the project to no longer be economically viable.5 As noted above, a
1-year delay has already occurred.

The economic analysis also states that economic viability is sensitive to changes in technical losses
in the electrical distribution system and to the willingness of residential customers to pay for
electricity. SIGAR has previously reported on concerns with the Afghanistan national power utility’s
billing systems, particularly in Kandahar.6 In addition, USAID’s Office of Inspector General reported in
September 2013 that the utility currently “does not have adequate cash flow to keep the plants
operating full time” and “operates them on a limited basis to respond to peak demand until users
are willing and able to pay the market rate for diesel power on a full-time basis.”7




4 USAID Afghanistan, Economic Analysis of Kandahar Helmand Power Program (KHPP), 2012, p. 12.
5 Ibid.
6 SIGAR Audit 13-7, Afghanistan’s National Power Utility: Commercialization Efforts Challenged by Expiring Subsidy and Poor USFOR-A and

USAID Project Management, April 18, 2013.
7 USAID Office of Inspector General, Audit of USAID/Afghanistan’s Kandahar Helmand Power Project, Audit Report No. F-306-13-001-P,

Sept. 25, 2013, emphasis added.




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                                 Page 2
In sum, because delays have already occurred and questions have been raised regarding the
willingness of customers to pay for electricity and the utility’s ability to bill customers for the use of
electricity, SIGAR believes that your assertion that the KHPP continues to be economically viable is
questionable. However, we are encouraged by your comment that USAID will conduct an updated
cost-benefit analysis later this year.

While we agree that projects should not be judged solely on the basis of economic cost, it is
important that the maximum value be obtained for U.S. taxpayer dollars. The potentially symbolic
achievements of KHPP do not give USAID a “blank check” to fund the project without limit. As
SIGAR’s analysis shows and your comments acknowledge, significant cost increases and schedule
delays have already occurred. We, therefore, encourage USAID to carefully consider the results of the
planned cost-benefit analysis to ensure that additional funding is adequately justified.




                                                                   Sincerely,



                                                                   John F. Sopko
                                                                   Special Inspector General
                                                                    for Afghanistan Reconstruction.



Enclosure(s):     Attachment I: USAID Response to SIGAR-14-40-SP (March 28, 2014)
                  Attachment II: SIGAR-14-40-SP Inquiry Letter: Kajaki Unit 2 Project (March 11, 2014)

cc:

The Honorable Dr. Rajiv Shah
 Administrator, U.S. Agency for International Development

Mr. William Hammink
 Mission Director for Afghanistan, U.S. Agency for International Development




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                        Page 3
ATTACHMENT I: USAID RESPONSE TO SIGAR-14-40-SP (MARCH 28, 2014)




                   ;~~~
                    ~
                        USAIDFROM THE AMERICAN PEOI'I.E



                       MEMORANDUM                                                   March 28. 2014


                       TO:            John F. Sopko
                                      Sp~cial Inspector General for
                                      Afghanistan Reconstruction (SIGAR)~

                       FROM:          Donald L. .. Larry.. Sampler    ~
                                      Assistant to the Administrator for
                                      Afghanistan and Pakistan Affai •

                       SUBJECT:       Response to SIGAR' s 1-1~0-SJ> lnquil} Letter Regarding the Kajaki
                                      Un it:! Turbine Installation Project

                       USAID would like to thank SIGAR for the opportunity to respond to concerns about
                       cost increases for the Kandahar Hchnand Power Project (KHPP) and the related on-
                       budget Kajaki Unit:! Turbine Installation Project (Kajaki Unit:! l'roject). We
                       constantly scrutinilc our programs and owrsight mechanisms to ensure taxpa) er
                       dollars arc protected in Afghanistan. This is a challenging. but essential part of the
                       "ork we do in Alghanistan. Oversight provided by SIGAR. the USAID Inspector
                       General and GAO. assists us in implementing eiTcetivc programs that support our
                       national interests.

                       With regard to your recent lnquil}' Letter on the KHPP and Kajaki Unit2 Project.
                       your findings appe-.~r to rcllcct a misunderstanding of USAID contracting
                       processes. SIGAR claims USAID's S75 million on-budget obligation lor Unit :! is a
                       342% cost increase: however. the 575 million estimate is aligned with USAID's 20 11
                       cost estimate. The letter also stal<:s that USAID did not decrease the KHPP contract
                       ceiling. In facL USAID made a contract modilication that dccn:ased the ceiling by
                       S38 million.

                       We encourage SIGAR ro request input from USAID bclore publishing Inquiry Letters
                       that may be based on inaccurate information and includ.: erroneous findings.

                       Finally. in assessing whether a spccitic project is meeting its obj~'Ct ives. we urge
                       SIGAR to consid.:r the U.S. Govcrnment's goals in implementing the project. In the
                       case of the Kajaki Unit2 Project. USA ID' s investment is not simply based on direct
                       economic n:turns. but also predicated on significant security and governance
                       objectives that the U.S. Government and the Go1 ernmcnt of the Islamic Republic of
                       Afghanistan arc working together to achicvc in Afghanistan.

                       A more d.:tailed rcsponse to SIGAR ·s assertions is included in the attachments of this
                       memorandum.




                                                                                                         l'age I




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                     Page 4
                       Attachments:

                              I. Tecbnlcal Olmments
                              2. Table 8.4: K.HPP Contract Budget Line Items
                              3. Response to SIOAR on KHPP Economic Analysis



                       cc:.

                       Dr. ~ivSbah
                       Administrator, U.S. Agency for International Development

                       William Hammink
                       Mission Director, U.S. Agency for International Development/Afghanistan




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                   Page 5
                                                                                                            ATTACHMENT 1

                      Response to SJGAR' s 14-40-SP Inquiry Letter Regarding the Kajaki Unit 2 Turbine
                      Installation Project

                      TECHNICAL COMMENTS

                      The Inquiry Letter asserts the following points about costs related to KHPP and the
                      Kajaki Unit 2 Project:

                           I. That USAID's estimated cost fo r the Kajaki Unit 2 project has more than
                              tripled in four years, from $17 million in 20 I 0 to $75 million currently.
                           2. That "USAID did not reduce the original total estimated cost of$266 million
                              for KHPP, but instead modified the contract to provide technical assistance
                              support to the Afghan government."
                           3. That, with such cost increases, KHPP and the Kajaki Unit 2 Project are not
                              economically viable by USAID's own Cost-Benefit Analysis (CBA).

                      We d isagree with each of the assertions above and provide the followi ng responses.

                      1) USAID Unit 2 Installation Cost Was Estimated to be $89 Million, Not $17
                         Million

                      The $16,964,925 (rounded to $17 million) figure for the original estimated cost of the
                      Kajaki Unit 2 Project that SlGAR referenced from the original KHPP contract (see
                      Attachment 2) was never an estimate of the full cost of installation. This figure
                      included a cost estimate for the Unit 2 inventory assessment but not full installation
                      costs, and represented only a "plug figure" place ho lder budget item for equipment
                      replacement and installation costs. 1 USAID uses plug figures for projects operating in
                      uncertain situations under cost-reimbursement type contracts. They are not offered as
                      precise estimates.

                      The reason for the placeholder budget was simple: there were over 40,000 Unit 2
                      parts and units of materials at the Kajaki site. These items were brought to the site in
                      2007-2008 under a prior contract and accompanied by varying levels of
                      documentation. The condition and suitabi lity of this equipment for successfully
                      installing Unit 2 was unknown when the KHPP contract was issued. Given these


                      1 The original KHJ>p conLract issued in December 20 I 0 contains a footnote in Table B.4 Budget Line

                      Items (sec Attachment 2) stating that the estimated cost for Component6 "Installation and commission
                      Kajaki Unit 2'. is provided as a plug figure. The footnote states that this line item fi gure authorizes
                      B&V to proceed only with inventory assessment; it requires prior written approval of the Contracti ng
                      Officer before proceeding with other activity sub-components including installatio n. Note that
                      Component 6 contains three subcomponents - 6.1 (Assessment), 6.2 (Eq uipment Replacement), and
                      6.3 (Installatio n). The $ 17 million initial budget for Component 6 contained a cost estimate for 6. 1 and
                      plug figure budgets for 6.2 and 6.3.
                                                                                                                            Page I
                                                                    Tel: 202-21~88/ 0700-108-001
                      U.S . Agency for International Development   Email: kabulusaidinformation@usaid.gov
                      Great Massoud Road                           http:/{afghanistan usaid.gov
                      Kabul, Afghanistan




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                                       Page 6
                      circumstances, USAID took the most prudent course of action for contracting Unit 2
                      installation.

                      As stated by Black & Veatch (B&V) in its final proposal in November 2010 and
                      accepted by USAfD, " ...it is not possible at this time to submit cost information on
                      CLINs [Contract Line Item Numbers] 6.2 and 6.3," referencing the budget line items
                      for the installation ofKajaki Unit 2. B&V goes on to state that " .. .it is in the best
                      interest of the Government to execute a modification to the contract upon completion
                      ofCLIN 6.1 [for inventory assessment] ... based on real facts on the ground and
                      examination of these by USAID."

                      As required by CLIN 6.1 of their contract, B&V submitted its Assessment Report, in
                      August 20 ll , including a cost estimate and proposed schedule for installing Unit 2.
                      B&V's initial estimated cost was $99 million, including all security, logistical, and
                      other support costs. Following technical reviews and negotiation with USAID, B&V
                      reduced their cost estimate to $89 million for the Unit 2 installation. While reduced,
                      this figure was still contingent on tendering the installation subcontract, which
                      represents the largest cost component of the project.

                      2) USAID Not Only Modified the KHPP Contract to Include Technical
                         Assistance to the Afghan Government; USAID Also Decreased the Total
                         Estimated Cost for tbe Contract by $38 Million

                      SIGAR's Inquiry Letter states that following the transfer of Unit 2 responsibility to
                      the Afghan Government in January 20 I 3, "USAJD did not reduce the total estimated
                      cost of the $266 million for the program, but instead modified the contract to fund
                      technical assistance support to the Afghan Government."

                      In December 2013, after Da Afghanistan Breshna Sherkat (DABS) demonstrated that
                      it could successfully contract for the Kajaki Unit 2 Installation, USAID modified
                      B&V's KHPP contract to reduce the total estimated cost to $228 million, a decrease
                      of$38 million. This decreased total estimated cost includes funding for the
                      aforementioned technical assistance. Coupled with the $75 million on-budget
                      component for the Kajaki Unit 2 Project through DABS, the total estimated cost for
                      KHPP and the Kajaki Unit 2 Project in total is now $303 million, a total increase of
                      $37 million over the original total estimated cost for KHPP - not a $58 million
                      increase as SIGAR asserts.

                      3) KHPP Continues to Be Economically Viable

                      In the USAID Cost-Benefit Analysis (CBA), which was performed in 2012, it stated
                      that a 16% increase in the 20 II dollar value of actual costs would make the project
                      unviable. As explained in the Economic Analysis methodology, this was referring to
                      all economic costs including USAID program costs as well as diesel fuel and
                      operations and maintenance for the next 20 years. SIGAR misconstrued the 16%
                      figure to refer only to USAID program costs and did not consider other costs such as
                      diesel and O&M; consequently, the 20 II dollar value of a 16% increase in all
                      economic costs is $377.6 million, not $313.4 million. as SIGAR asserts? In fact,
                      2
                        fn addition, USAfD questions SIGAR' s methodology used in its CBA. See Attachment 3 for
                      discussion of methodology used by USALD in its original2012 CBA.
                                                                                                                  Pagc2




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                            Page 7
                      according to the original analysis, USAID program costs could increase by up to
                      21.5% and remain economically viable, holding all other costs constant. However,
                      considering that total KHPP program costs have only increased by roughly 12% (the
                      above mentioned $303 million) from the $270 million figure modeled in the economic
                      analysis, KHPP will remain below the break-even point for economic viability even if
                      there is future cost escalation of the $75 million on-budget Unit 2 component.
                      Additionally, as part of USAID's normal internal review process, the agency will
                      conduct an updated Cost-Benefit Analysis later this year that will focus on Kajaki
                      Unit 2 as an on-budget project.

                      While USAfD's CBA demonstrates that KHPP and Kajaki Unit 2 are economically
                      viable, it is important to note that the strategic value of these projects is far greater
                      than what can be presented from a strictly economic point of view. The benefits in
                      the economic analysis include only those that can be monetized, such as additional
                      electricity supply for consumers connected to the grid. The KHPP and Kajaki Unit 2
                      projects carry strategic counter-insurgency (COIN) related benefits that the CBA does
                      not capture. These activities will continue to have positive effects on stabilization in
                      Helmand and Kandahar. As a result, USAfD believes that any economic analysis
                      significantly undervalues the overall benefits of implementing KHPP and the Kajaki
                      Unit 2 Project. These activities remain a political priority for both the Afghan and
                      U.S. Governments, of great symbolic and stabilization value for the region, and
                      should not be judged solely on the basis of economic cost.




                                                                                                         Pagc3




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                    Page 8
                Contnoc:t No 306-C-00-11-00506-00
                Black & Veatch Specoal Pro)<CtS C0<p0n11oon
                Kandahar Power tnotiouve {KPI)



                8.4        BUDGET LJNE ITEMS

                            Sub-
                CLIN
                            CLIN
                 No.                                            CLIN   Descri~tion                      Estimated Cost        Fixed Fee
                             No.
                   1                    Improve Kandahar Power Distribution System                      $86,238,176         $4,743, 100.00
                               I        Renovate the Kandahar Breshna Substation
                                        Refurbish and expand !he Kandahar City Medium Voltage
                               2
                                        and Low Voltage Distribu!ion Svs!em
                               3        Construct new Kandahar East Substation
                                        Construct a transmission line blw the Kandahar Breslma
                               4
                                        Substation and the new Kandahar East Substation
                                        Replacement of 14 Diesel Generators at the Breshna
                               5
                                        Substation
                                                                                                        $28,850,784
                   2                    Rebuild Dur al Junction Substation                                                  $1 ,586,793.00

                               I        Rebuild Durai Junction Station

                               2        Procure equipment for additional substations

                                        Regional Camp and Program Management                            $73,176,057         $4,024,683.00
                   3
                                        Transportation, Installation, Operation sod
                   4                    Maintenance ofKandabar Industrial Park Diesel                   $4,503,782          $247,708.00
                                        Power Plant
                                        Rebuild tbe Kajaki Dam Substation and Local
                   s                    Distribution Svstem                                             $43 300 296
                                                                                                                            $2,38 1,516.00


                   6                    Installation and commission Kajaki Unit 2*                      $16,080,498         $884,427.00

                               I        Perform inventory assessment of GFE
                                        Repair GFE, provide missing and additional new
                               2
                                        eauioment for comoletinl!. Unit 2 installation
                               3        Install and commission Kajak.i Unit 2

                                                                                 Total Estimated Cost   $252, 149,593.00

                                                                                            Total Fee                       $13,868,227.00

                                                                                                                           $266,0 17,820.00
                                                              Total Estimated Cost Plus Fixed Fee

              * The estimated cost of CLIN 6 is provided as a plug figure; Contractor is authorized to start performing on
                sub-CLIN 6.1 upon Contract award. Performance under Sub-CLINs 6.2 and 6.3 will require prior written
                approval of the Contracting Officer.




                                                                             5




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                                                Page 9
SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up




                                                                 F ttachment 3: Additional Response to SIGAR on KHPP Economic Analysis

                                                                 Economic VIability of KHPP (millions, USD) ·discounted to 2011 dollars


                                                                                                Originally estimated            Total estimated economic costs of KHPP                                               Total Actual
                                                                                                                                                                                     Economic Cost
                                                                                               Program Cost of KHPP          (including $270 million program costs, diesel                                         Economic Cost
                                                                                                                                                                                     Before Program
                                                                                                    ($270 million                  fuel, operations and maintenance,                                               {Includes $303
                                                                                                                                                                                    Becomes Unviable
                                                                                                   undiscounted)                       environmental externality)                                              Million Program Cost)

                                                                       Dollar Amount
                                                                       (discounted to                  $238.2'                                     $325.5b                                 $377.6(                   $347.8d
                                                                         2011 USO}
                                                                     Percentage ofTotal
                                                                         Estimated                      73.2%                                      100.0%                                   116%                      106.8%
                                                                       Economic Cost s



                                                                 ' Program funds were anticipated to be spent between 2011 and 2014. This figure is t he value of t he funds discounted to 2011 dollars using the USAID
                                                                 standard 12% economic opportunity cost of capital (or discount) rate. Therefore, the discounted value does not equal the undiscounted estimate of KHPP
                                                                 program costs of $270 million.

                                                                 b Because an economic analysis is not a financial analysis- which is strictly cash fl ows- this economic analysis considered all economic costs of the KHPP
                                                                 program, w hich includes operations and m aintenance for both the Kajaki Unit 2 and the new subst ations, as well as the costs to run the new diesel plants (ie,
                                                                 diesel fuel). It also includes environmental externalities associated with increased carbon dioxide emissions.

                                                                 c   In the original executive summary, the value of actual costs as a percentage of estimated costs for which Net Pr esent Value of KHPP = 0 was 116% (see page
                                                                 10). "Costs" in this analysis is economic opportunity costs, as stated in t he economic analysis methodology section on page 4. The dollar value of a 16%
                                                                 increase in all discounted economic costs is $377.6 million. This reflects a 16% annual incr ease in all costs including the program costs, operations and
                                                                 maint enance, variables costs such as fuel, and environmental externalities for the full 20 years of the analysis (see pr evious footnote).

                                                                 d The   original economic analysis discounted programmatic fun ding in the years t he cash was expected to be spent in country, and not the years it was obligated
                                                                 (this i s standard methodology). Using the original economic analysis model, the progr am costs were updated to reflect an increase to $303 million progr am
                                                                 cost s; this includes the $75 million increase and deducts costs due to descoping actions that did not impact the anticipated benefits of the analysis. Although
Page 10
SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up




                                                                 the additional program funds were obligated late in 2013, they will likely be spent in 2014 and 2015. The updat ed analysis estimated that half of the additional
                                                                 funds would be spent in 2014 and half in 2015. The resulting increase in program funds causes a 6.8% increase over the original est imated total economic
                                                                 costs of KHPP.

                                                                 Most important ly, adjusting for an increase in program funds for KHPP using the original analysis, the net present value (NPV) of the project is
                                                                 $26 million, which is a 13.6% internal rate of return. This implies that the economic benefits of the program still outweigh the economics costs
                                                                 of the program, despite the increase in program funding.

                                                                 Moreover, the benefits in the economic analysis only include those that can be calculated (such as the cost savings for the consumers that no
                                                                 longer use expensive private diesel generation when they connect to the grid). This analysis could not possibly measure the benefits KHPP will
                                                                 have on sta bilization in Helm and and Kandahar, which are likely to be significant. As a result, we believe that the economic analysis considerably
                                                                 undervalues the economic benefits of KHPP.
Page 11
ATTACHMENT II: SIGAR-14-40-SP INQUIRY LETTER: KAJAKI UNIT 2 PROJECT
(MARCH 11, 2014)




                                                         Office of tile Special Inspector General
               ®                  SIGAR I for Afg)lanistan Reconstruction

                                                                                                                                     March 11, 2014

              The Honorable Dr. RaJiv Shah
              Administrator. U.S Agency for International Development

              Mr. William Hammink
              M1ssion Director for AfghanistBn, U S Agency for International Development


              Dear Administrator Shah and Director Hamm rnk

              I am writmg to alert you to our concerns about cost increases for the Kandahar Helmand Power
              Program (KH PP) that I believe require your immediate attention. Specifically, I am concerned about
              $75 million the US Agency for International Development (USAID) has obligated for the 1nstallat1on
              of an addrtronal power generating turbtne at the KaJakt Dam .1 In four years, the estrmated cost of
              tnstB IImg th1s turbme has more than trtpled. Moreover. accordtng to USAID's own analysts the cost
              increase outweighs the benefits derived from the entrre KHPP

              In December 2010, USAID awarded a contract to Black
                                                                             Table 1: K2jakl Unit 2 Project Cost
              and Veatch Special Projects Corporation (Black & Veatch)
                                                                             Chanees (2010-Present)
              t o complete the KHPP. According to USAID. the program is
              designed to fuel economtc growth by addresstng electncal
                                                                             Ong1nal Estimated Cost     $16.964.925
              supply shortfalls m the Kandahar and Helmand provinces.
              KHPP ts one of USAID's largest active programs m
              AfghanistBn. with a totBI esti mated cost of about $266        Current Estimated Cost     $ 75.000,000
              mill1on Th1s project has SIX components including the
              tnstB IIatton and comm1ss1on of an additional turbine for      Change($)                  $58,035.075
              the KaJakl Dam. known as the KaJakt Unit 2 Project In
              Ja nua ry 2013. at the request oftrhe Afghan government,       Change(%)                  342%
              USAID removed the req ui rement for the instBIIation of
              Kajaki Unit 2 from its K HPP contract with Black and Veatch    source: USAID Data; SIGAR analysis
              and transferred responsibility to the Afghan government
              However, USAID did not reduce the original totBI estimated
              cost of $266 mil lion for the program but instead modified the contract to fund tech nical assistance
              support to the Afghan government USAID then obligated an addrtronal $75 mrll ton under an extstrng
              grant w1th the Afghan government to fund the 1nstallatton of the turbme un1t. k. shown 111 Table 1,
              t he $75 million to be provided to the Afghan government is approxrmate ly $58 million more than the
              original estimated cost of the turbine unit




              1 The fund ing was obligated under the e,;ist1ng USAIO Strategic Grant Agreement for a Thnving Econom)' Led by· the Pri\1ate Sector. The
              Kaja ki Dam has long been recognized as a potentia l source of sustainable an d rene1.vable r:ower to southern Afghanistan. The United
              States f1rst tegan construction on the Kajaki Dam in the earl)· 1950s ta prov1de 1rrigat1on and etectncity to the region. The dam har.s been
              plagued b)l problems and neglect throughout its history and remains incomplete




                           1550 Cr)'Stal Drlve, 9tll Floor       Mail: 2530 Crystal Dnve               Tel: 703 545 6000          www.sigar.mil
                           Arlington. Virginia 22202             ArlingtOil, Virginia 22202-3940




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                                                               Page 12
              With the additional fundmg provided for the KaJakl Umt 2 project the cost for all s1x components of
              t he orig1nal KHPP co nsequently Increased by $7 5 million to $345 million. This cost Increase
              indicates that the KHPP may no longer be economically viable According to a 2011 USAID economic
              ana lysis of KHPP. the costs of the program would outweigh its benefits 1f actual costs exceeded the
              estimated costs by more than 16 percenF In other words, based on the ongmal cost estimate of
              $270 million fo r the KHPP, any cost increase exceedmg $43 million (o r 16 percent) would make the
              KHPP economically unviable. Our analysis showed that the cost increase of $75 mi llion for the
              turbine unit represents a discounted increase of $59 million (or 22 percent) for the overall KHPP 3

              Table 2 provides details of our cost ca lculations.


                Table 2: Economic Viability of the KHPP
                                        Total Estimated        Cost before Program Is Unviable                   Actual Cost         Discounted Actual Cost
                                              Cost

                Dollar Amount           $270,000.000 t                    $313,200,000                         $345,000,000               $329,789,541

                Percent of Tota I
                                              100%                              116%                                 128%                      122%
                Estimated Cost

                Source: USAID Economtc Analysis of Kandahar Helmand Power Progra m: SIGAR Analysis
                • Discounted to 2011 dollars. see footnote 3 for details.
                b The USAID analysis rounded the $266 millton cost up to $270 millron.




              Altho ugh USAID has obl igated $75 million to the Afgha n government to install the turbtne unit those
              funds have not been disbursed. Because of our concerns over the cost increases. we are requesti ng
              that before disbursing those funds. USAID explain why the cost of the tu rbme unit increased from
              $16.9 mi llion to $75 million. We would also like to know which considerations were factored 1nto
              USAID's dectsion to approve such an increase g1ven that USAID was aware that the additional
              funding would cause the program's costs to outweigh the benefits. We request that you provide a
              formal written response no later than March 28. 2014




              ' United States t>gency for International Development. Economic Analysis of Kandahar Halmand Power Program (KliPP). 2011. The authors
              of t he analysis states that "the economic analysis was oonductec::l usmg   tradition~ I   methodLJi ogy of a c21sh f low analysrs considenng
              aconomk: opportunity costs and benefits. The methodology compares the anticipated benefi ts and costs of tl1e KH PP against the
              countsn'actual. which models what the eoonomk: situation in Afghani stan would be if KHPP never e'isted. This economic analysis
              compared the annual gros s benefit stream against the annual gross casts for an overall analysis of the net benefits.''

              :: To maintain consi9t.enC)' with USAID's analysis. we calculated tl1e net present value of the $75 million cost increase. For our calculations ,
              we uaed the 9gme assumptions t ha t USAJD did in ita Economic Analysis of Kandahar Helmand Power Program. USAID used a 1 2 percent
              dtscount rate . a base year o f 2011. and a base cost of $270 millto n_ Gme n that the funds were obligated 1n 2013. w e used 2 years far the
              time variable in the expression. In order to Cillculate the value of $ 75 million in 2011 dollars, we used tile following equat1on:
              75.000,000/(1.122) = 59, 789, 5 4 1. According to Office of Management and Budget guidance, the standard criterion for de ciding whether a
              government program can be justified on econom1c principles is net present value~-the discounted moneti zed value of e:cpected net benefits
              (i.e. benefits minus cos1E·L Net present value ts computed by assigning monetary values to benefits and costs, disoounting futurs benefits
              and costs using an approp riate disco unt !'lite, and subtracting the sum tot!! I of discounted costs from the sum total of discounted benefits .
              Discounting benefits and costs transforms gains and losses occ urring 1n different time pe nods to a oommon unit o f measurement_ The
              USAID analysis calculated t he net social gain by subtracting the producer loss 1:oosts to the program) from the consumer surplus gained by
              the benefits of the program.




              SIGAR-14-40.SP Inquiry Letter: Kajaki Unit2 Project                                                                                             Page 2




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                                                                         Page 13
              Shou ld you have any questions or need add1t1onal 1nformat1on. please contact Jack Mitchell, D1rector
              of Special Projects, at               or at                                 Thank you 111 advance
              for your attention to th1s matter




                                                                            Special Inspector General
                                                                              for Afghanistan Reconstructon




              SIGAR-14-40.SP Inquiry Letter: Kajaki Unit2 Project                                            Page 3




SIGAR-14-53-SP Inquiry Letter: Kajaki Unit 2 Project Follow-Up                                                        Page 14
